U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


     DEPARTMENT OF THE INTERIOR
     COMPLIANCE WITH LIMITATIONS
       ON LOBBYING ACTIVITIES

            REPORT NO. 96-I-223
              DECEMBER 1995
MEMORANDUM




Attached for your information is a copy of the subject final report.

The Department of the Interior was in substantial compliance with the antilobbying
provisions of Section 1352 of the United States Code, and the Section’s requirements
as implemented by the Department were effective. In addition, the Department
complied with the Congressional reporting requirements for lobbying activities in a
timely manner.

If you have any questions concerning this matter, please contact me at 208-5745.




Attachment
                                                                   E-IN-MOA-011-95


            United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                   Headquarters Audits
                                  1550 Wilson Boulevard
                                        Suite 401
                                   Arlington, VA 22209



                               AUDIT REPORT
Memorandum




Subject: Final Audit Report on Department of the Interior Compliance With
         Limitations on Lobbying Activities (No. 96-I-223)

                               INTRODUCTION
In accordance with Section 1352 of the United States Code (31 U.S.C. 1352 (d)(l)),
the Office of Inspector General has reviewed Department of the Interior compliance
with, and the effectiveness of the requirements imposed by, the Section and the
Department’s antilobbying guidance. The objectives of the audit were to determine
whether the Department complied with Section 1352 and to evaluate the
effectiveness of the Section’s requirements for certification and disclosure of lobbying
activities. We concluded that, overall, the Department has substantially complied
with the Section’s requirements and that the requirements as implemented by the
Department were effective.

BACKGROUND

Section 319 of Public Law 101-121, enacted on October 23, 1989, amended Title 31
of the United States Code by adding Section 1352, “Limitation on Use of
Appropriated Funds to Influence Certain Federal Contracting and Financial
Transactions.” Section 1352 prohibits the use of appropriated funds by the recipient
of a Federal contract, grant, cooperative agreement, or loan to pay any person for
influencing or attempting to influence an officer or employee of any agency, a
member of the Congress, an officer or employee of the Congress, or an employee
of a member of the Congress in connection with certain types of Federal actions.
The Department of the Interior requires each person who requests or receives a
grant or a cooperative agreement exceeding $100,000 or a loan over $150,000 from
the Department to certify compliance with this antilobbying provision with a signed
certification, Form DI 1963, “Certification Regarding Lobbying.” Subpart 3.808 of
the Federal Acquisition Regulation (48 CFR 1) requires the provision at 52.203-11,
“Certification and Disclosure Regarding Payments to Influence Certain Federal
Transactions,” to be included in all solicitations expected to exceed $100,000 and the
clause at 52.203-12, “Limitation on Payments to Influence Certain Federal
Transactions,” to be included in all solicitations and contracts expected to exceed
$100,000.

Any person who requests or receives a Federal contract, grant, or cooperative
agreement exceeding $100,000 or loan exceeding $150,000 who uses nonappropriated
funds for lobbying activities is required to disclose those activities by filing Standard
Form LLL, “Disclosure of Lobbying Activities,” with the Department. The
Department is required to collect and compile any information contained in Standard
Form LLL during the 6-month periods ending March 31 and September 30 of each
year and to report the information to the Secretary of the Senate and the Clerk of
the House of Representatives on May 31 and November 30 for the applicable
reporting periods.

Title 31, Section 1352(d)(l), of the United States Code requires that the Inspector
General submit to the Congress annually an evaluation of the Department’s
compliance with, and the effectiveness of the requirements imposed by, Section 1352.

SCOPE OF AUDIT

To accomplish our audit, we reviewed 338 contracts, grants, and cooperative
agreements, each totaling more than $100,000, that were awarded from April 1, 1994,
through March 31, 1995. We did not review loans over $150,000 because such
transactions occur infrequently within the Department and none of the audit sites
selected for review had recorded loan transactions that exceeded this amount.

This compliance and performance audit was conducted from April through
September 1995 at various Departmental and bureau offices (see Appendix 1). The
review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly,
we included such tests of records and other auditing procedures that were considered
necessarry under the circumstances. As a part of our review, we evaluated the
Departmental system of internal controls for certification and disclosure of lobbying
activities. Although we determined that the existing controls were adequate, we
identified instances where the bureaus did not comply with prescribed procedures
and Departmental guidance.

We also reviewed the Department’s Annual Statement and Report, required by the
Federal Managers’ Financial Integrity Act, for fiscal year 1994 and noted that the
existence of incomplete and inaccurate data in the Interior Procurement Data System
was reported as a material internal control weakness. Because of this weakness, we


                                            2
used additional sources, such as the internal bureau procurement logs, to select our
audit samples.

PRIOR AUDIT COVERAGE

Our prior report entitled “Department of the Interior Compliance With Limitations
on Lobbying Activities’’(No. 95-I-457), issued on February 10, 1995, stated that the
Department was in compliance with Section 1352 of the United States Code and that
the Section’s requirements as implemented by the Department were effective. The
report also stated that the Department complied with the Congressional reporting
requirements for lobbying activities in a timely manner.

                           RESULTS OF AUDIT
We concluded that the Department of the Interior was in substantial compliance with
the antilobbying provisions of Section 1352 of the United States Code and that the
Section’s requirements as implemented by the Department were effective. We found
that the required certifications or contract clauses were included in 317 (94 percent)
of the 338 contract, grant, and cooperative agreement files we reviewed (see
Appendix 2). We also found that the Department complied with the Congressional
reporting requirements for lobbying activities in a timely manner.

Certification Requirements

We found that the bureaus had incorporated the required antilobbying provision
52.203-11 or clause 52.203-12 in 208 (95 percent) of the 219 contract files we
reviewed. We also found that 109 (92 percent) of the 119 grant and cooperative
agreement files contained the required Form DI 1963.

For the 21 instances of noncompliance, the bureaus had taken or were in the process
of taking action to obtain Forms DI 1963 or to incorporate the required certifications
in 14 grant, cooperative agreement, and contract files. The seven remaining contracts,
grants, and cooperative agreements have been completed; therefore, no corrective
action is required.

We found that each of the offices where instances of noncompliance were identified
had controls and procedures for ensuring compliance with requirements concerning
lobbying. The instances of noncompliance that we noted were isolated except at the
National Park Service, where 11 of the 95 actions we reviewed were not in
compliance, and at the Office of Administrative Services, Office of the Secretary,
where 3 of 13 actions were not in compliance. Seven of the 11 actions were at
National Park Service locations that had not been audited in previous years.
However, officials at these Park Service locations and at the Office of Administrative

                                          3
Services indicated that actions would be taken to ensure future compliance with
Section 1352.

Congressional Reporting Requirements

We found that the Department had complied with the Congressional reporting
requirements for lobbying activities in a timely manner.          Title 31, Section
1352(a)(6)(A), of the United States Code requires each agency to report information
concerning disclosures of lobbying activities paid for with nonappropriated funds by
May 31 and November 30 of each year for the 6-month reporting periods ending
March 31 and September 30, respectively. The required Departmental reports to the
Congress were dated May 26 and November 30, 1994, respectively.

Effectiveness of Section 1352

We believe that the primary mechanism for preventing the use of appropriated funds
for lobbying activities by recipients of Federal contracts, grants, cooperative
agreements, and loans is to adequately inform all recipients of the Federal
antilobbying provisions. As discussed in the Certification Requirements section of
this report, we found that the Department adequately provided such antilobbying
information in its contracts, grants, and cooperative agreements.         We also
determined that there were no HOTLINE allegations or referrals to the Office of
Inspector General concerning prohibited lobbying activities during our audit period.
In addition, we found that procurement personnel at the offices visited during our
audit were unaware of any circumstances regarding the use of Federally appropriated
funds for lobbying activities.

Based on our conclusion that the Department is in substantial compliance with
Section 1352 and our determination that no instances of noncompliance with the
Section’s requirements were reported, we believe that the requirements of Section
1352 as implemented by the Department were effective.

Since this report does not contain any recommendations, no response is required.
However, if you have any questions regarding this report, please contact Mr. Neal
Littlefield, Audit Director, at (703) 235-9388.




cc:   Commissioner, Bureau of Reclamation
      Director, Bureau of Land Management
      Director, Office of Insular Affairs
      Director, Office of Surface Mining Reclamation
        and Enforcement
Director,   National Biological Service
Director,   National Park Service
Director,   Minerals Management Service
Director,   U.S. Bureau of Mines
Director,   U.S. Fish and Wildlife Service
Director,   U.S. Geological Survey
Director,   Office of Acquisition and Property Management
                                                             APPENDIX 1
                                                               Page 1 of 2

                              OFFICES VISITED

             Office                                    Location


Bureau of Land Management

Denver Service Center,
  Branch of Procurement                          Lakewood, Colorado
  Branch of Information Resource Acquisition     Lakewood, Colorado

Bureau of Reclamation

Administrative Service Center, Acquisition
  and Property Management Branch                 Lakewood, Colorado

Minerals Management Service

Procurement and Property Management Division     Herndon, Virginia
Western Administrative Service Center,
  Procurement and Contracts Branch               Golden, Colorado

National Biological Service

Procurement Office                               Arlington, Virginia

National Park Service

Contracting and Procurement Division             Washington, D.C.
National Capital Regional Office
 Contracting Division                            Washington, D.C.
Denver Service Center,
 Contract Administration Division                Lakewood, Colorado
Rocky Mountain System Support Office             Lakewood, Colorado
Division of Contracting and
 General Services                                San Francisco, California
Golden Gate National Recreation Area,
 Branch of Contracting and Property Management   San Francisco, California
                                                                 APPENDIX 1
                                                                   Page 2 of 2




Office of Policy, Management and Budget

Office of Acquisition and Property
  Management                                       Washington, D.C.
Office of Administrative Services                  Washington, D.C.

Office of Surface Mining Reclamation and Enforcement

Division of Administration                         Denver, Colorado

Office of Insular Affairs

Operations Division                                Washington, D.C.

U.S. Bureau of Mines

Branch of Procurement                              Lakewood, Colorado
Branch of Procurement                              Washington, D.C.

U.S. Fish and Wildlife Service

Division of Contracting and General Services       Arlington, Virginia
Division of Contracting and General Services,
 Region 6                                          Lakewood, Colorado
Construction Contracting Office                    Lakewood, Colorado

U.S. Geological Survey

Office of Procurement and Contracts                    Reston, Virginia
Branch of Procurement and Contracts                    Denver, Colorado
    APPENDIX 2




8
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY


Sending written documents to:                                   Calling:


                      Within the Continental United States


U.S. Department of the Interior                          Our 24-hour
Office of Inspector General                              Telephone HOTLINE
P.O. Box 1593                                            1-800-424-5081 or
Arlington, Virginia 22210                                (703) 235-9399

                                                         TDD for the hearing impaired
                                                         (703) 235-9403 or
                                                         1-800-354-0996


                     Outside the Continental United States

                                    Caribbean Area


U.S. Department of the Interior                          (809) 774-8300
Office of Inspector General
Caribbean Region
Federal Building & Courthouse
Veterans Drive, Room 207
St. Thomas, Virgin Islands 00802


                                  North Pacific Region

U.S. Department of the Interior                          (700) .550-7279 or
Office of Inspector General                              COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
HOTLINE
